No. 20-1200
IN THE SUPREME COURT OF THE UNITED STATES
_________________
COMMON GROUND HEALTHCARE COOPERATIVE,
ON BEHALF OF ITSELF AND ALL OTHERS
SIMILARLY SITUATED, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES, via e-mail and first-class mail, postage
prepaid, this 30TH day of April, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 1342 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on April 30, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 30, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief.
If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1200
COMMON GROUND HEALTHCARE COOPERATIVE
USA

DAVID M. COOPER
QUINN EMANUEL URQUHART & SULLIVAN
LLP
51 MADISON AVE.,
22ND FLOOR
NEW YORK, NY 10010
LAWRENCE S. SHER
REED SMITH LLP
1301 K STREET, NW
SUITE 1000
EAST TOWER
WASHINGTON , DC 20005
202-414-9200
ISHER@REEDSMITH.COM
KATHLEEN MARIE SULLIVAN
QUINN EMANUEL URQUHART & SULLIVAN
LLP
865 S. FIGUEROA ST.
10TH FLOOR
LOS ANGELES, CA 90017
213-443-3000
KATHLEENSULLIVAN@QUINNEMANUEL.CO
M
STEPHEN A. SWEDLOW
QUINN EMANUEL
191 N. WACKER DRIVE
SUITE 2700
CHICAGO, IL 60606-1881
312-705-7488
STEPHENSWEDLOW@QUINNEMANUEL.COM

COLIN E. WRABLEY
REED SMITH LLP
REED SMITH CENTRE
225 FIFTH AVENUE
PITTSBURGH, PA 15222-2716
412-288-3548
CWRABLEY@REEDSMITH.COM

